         DEPARTMENT OF HEALTH & HUMAN SERVICES	 	                              . Office of Inspector General


                                                                                Washington, D.C.	 20201



                                         AUG - 3 2009

TO:	 	         Charlene Frizzera
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:	 	       Daniel R. Levinson
               Inspector General


SUBJECT:	 	 Review of Medicare Contractor Processes for Reviewing Pennsylvania Hospitals'
            Wage Data (A-03-08-00020)


Attached is an advance copy of our final report on Medicare contractor processes for reviewing
Pennsylvania hospitals' wage data. We will issue this report to Highmark Medicare Services
(Highmark) and to Wisconsin Physicians Service Insurance Corporation (Wisconsin Physicians)
within 5 business days.                                     i




Highmark and Wisconsin Physicians are Medicare contractors responsible for reviewing and
adjusting, as appropriate, the cost reports of 154 hospitals in Pennsylvania. The Centers for
Medicare & Medicaid Services (CMS) uses the nationwide wage data that Medicare contractors
have reviewed and approved to calculate wage indexes for hospitals in all core-based statistical
areas (CBSA) and statewide rural areas. To establish consistency in wage data reviews, each
year CMSprovides Medicare contractors with specific guidance, the "Annual Desk Review
Progralll for Hospital Wage Data" (desk review program).

We conducted this review as a result of a congressional request related to Highmad<-' s calculation
of costs used to determine the wage index of the Altoona Regional Health System (Altoona
Hospital), one of two hospitals in a CBSA in western Pennsylvania. Discussions indicated
congressional concern that any differences in wage indexes between western and eastern
Pennsylvania may have resulted from possible disparate treatment of western and eastern
Pennsylvania hospitals during Highmark's wage data reviews.

Our objectives were to determine whether:

   •	 	 Highmad<- followed the desk review program when reviewJng Altoona Hospital's wage
        data that CMS used to calculate the fiscal years (FY) 2004 through 2009 wage indexes
        and
Page 2 – Charlene Frizzera


   •	 Highmark and Wisconsin Physicians followed the desk review program when reviewing
      20 other Pennsylvania hospitals’ wage data that CMS used to calculate the FY 2009 wage
      indexes.

Highmark followed the desk review program when reviewing Altoona Hospital’s wage data that
CMS used to calculate the FYs 2004 through 2009 wage indexes. For the 20 other selected
hospitals, Highmark and Wisconsin Physicians followed the desk review program when
reviewing the hospitals’ wage data that CMS used to calculate the FY 2009 wage indexes.

Because we found no evidence of disparate treatment based on the Medicare contractor that
reviewed the wage data or a hospital’s geographic location, we have no recommendations.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Stephen Virbitsky, Regional Inspector General for Audit Services, Region III, at
(215) 861-4470 or through email at Stephen.Virbitsky@oig.hhs.gov. Please refer to report
number A-03-08-00020.


Attachment
   DEPARTMENT OF HEALTH & HUMAN SERVICES
                                                                                           .
 

                                                                          OFFICE OF INSPECTOR GENERAL

                                                                          Office of Audit Services, Region III
                                                                          Public Ledger Building, Suite 316
                                                                          150 S.lndependence Mall West
                                                                          Philadelphia, PA 19106-3499

                                        AUG - 5 2009

Report Number: A-03-08-00020

Mr: Patrick Kiley
President
Highmark Medicare Services
1800 Center Street
Camp Hill, Pennsylvania 17089

Dear Mr. Kiley:

Enclo~ed is the U.S. DepartmentofHealth and Human Services (HHS), Office ofInspector
General (OIG), final report entitled "Review of Medicare Contractor Processes for Reviewing
Pennsylvania Hospitals' Wage Data." We will forward a copy of this report to the HHS action
official noted below.

Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
available to the public to the extent that information in the report is not subject to exemptions in
the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action·
official. Please refer to report number A-03.,08-00020 in all correspondence.                '

                                               Sincerely,



                                               Stephen Virbitsky
                                               Regional Inspector General
                                                 for Audit Services


Enclosure


HHS Action Official:

Ms. Nanette Foster Reilly.
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare &, Medicaid Services
601 East 12th Street, Room 235
Kans~s City, Missouri 64106
V""'VI"".      DEPARTMENT OF HEALTH & HUMAN SERVICES                                  OFFICE OF INSPECTOR GENERAL


(~~                                                                                   Office of Audit Services, Region III
                                                                                      Public Ledger Building, Suite 316
                                                                                      150 S. Independence Mall West
                                                                                      Philadelphia, PA 19106-3499

                                                    AUG - 5 2009

            Report Number: A-03-08-00020

            Mr. Guy Ringle .
            Senior Vice President, Medicare
            Wisconsin Physicians Service Insurance Corporation
            1707 West Broadway                          .
            Madison, Wisconsin 53707-7927

            Dear Mr. Ringle:

            Enclosed is the U~S. Department of Health and Human Services (HHS), Office of Inspector
            General (DIG), final report entitled "Review of Medicare Contractor Processes fOf Reviewing
            Pennsylvania Hospitals' Wage Data." We will forward a copy of this report to the HHS action
            official noted below.

            Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, DIG reports generally are made
            available to the public to the extent that information in the report is not subject to exemptions in
            the Act. Accordingly, this report will be posted on the Internet at http://oig.hhs.gov.

            If you have any questions or comments about this report, please direct them to the HHS action
            official. Please refer to report number A-03-08-00020 in all correspondence.

                                                           Sincerely,



                                                           Stephen Virbitsky
                                                           Regional Inspector General
                                                             for Audit Services


            Enclosure


            HHS Action Official:

            Ms. Nanette Foster Reilly
            Consortium Administrator
            Consortium for Financial Management & Fee for Service Operations
            Centers for Medicare & Medicaid Services
            601 East 12th Street, Room 235
            Kansas City, Missouri 64106
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





     REVIEW OF MEDICARE

  CONTRACTOR PROCESSES FOR

   REVIEWING PENNSYLVANIA

    HOSPITALS’ WAGE DATA 





                    Daniel R. Levinson

                     Inspector General 


                       August 2009

                      A-03-08-00020

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY


BACKGROUND 


Under the inpatient prospective payment system for acute-care hospitals, Medicare Part A pays
hospital costs at predetermined, diagnosis-related rates for patient discharges. Fiscal
intermediaries and Medicare administrative contractors (collectively, Medicare contractors)
under contract with the Centers for Medicare & Medicaid Services (CMS) pay acute-care
hospitals and review hospitals’ Medicare cost reports.

To reflect labor cost variations among localities, CMS adjusts prospective payments to hospitals
through wage indexes. CMS calculates a wage index for each metropolitan area, known as a
core-based statistical area (CBSA), as well as a statewide rural wage index for each State. These
calculations use hospital wage data (which include wages, salaries, and related hours) collected
4 years earlier to allow time for CMS to collect complete cost report data and for Medicare
contractors to review and adjust, as appropriate, the data. For example, CMS based the wage
indexes for fiscal year (FY) 2009, which began October 1, 2008, on wage data collected from
hospitals’ Medicare cost reports for their FYs that began during Federal FY 2005. To establish
consistency in wage data reviews, each year CMS provides Medicare contractors with specific
guidance, the “Annual Desk Review Program for Hospital Wage Data” (desk review program).

The Altoona Regional Health System (Altoona Hospital) is one of two hospitals in the Altoona
CBSA, located in western Pennsylvania. Highmark Medicare Services (Highmark) is
responsible for reviewing Altoona Hospital’s Medicare cost reports, as well as the cost reports of
119 other hospitals in Pennsylvania. Wisconsin Physicians Service Insurance Corporation
(Wisconsin Physicians) is responsible for reviewing the cost reports of the 34 remaining
hospitals in the State.

We conducted this review as a result of a congressional request related to Highmark’s review
and approval of wage data used to determine Altoona Hospital’s wage index. Discussions
indicated congressional concern that any differences in wage indexes between western and
eastern Pennsylvania may have resulted from the possible disparate treatment of western and
eastern Pennsylvania hospitals during Highmark’s wage data reviews.

OBJECTIVES

Our objectives were to determine whether:

   •	 Highmark followed the desk review program when reviewing Altoona Hospital’s wage
      data that CMS used to calculate the FYs 2004 through 2009 wage indexes and

   •	 Highmark and Wisconsin Physicians followed the desk review program when reviewing
      20 other Pennsylvania hospitals’ wage data that CMS used to calculate the FY 2009 wage
      indexes.




                                                i
RESULTS OF REVIEW

Highmark followed the desk review program when reviewing Altoona Hospital’s wage data that
CMS used to calculate the FYs 2004 through 2009 wage indexes. For the 20 other selected
hospitals, Highmark and Wisconsin Physicians followed the desk review program when
reviewing the hospitals’ wage data that CMS used to calculate the FY 2009 wage indexes.

Because we found no evidence of disparate treatment based on the Medicare contractor that
reviewed the wage data or a hospital’s geographic location, we have no recommendations.




                                              ii
                                                  TABLE OF CONTENTS 


                                                                                                                                    Page

INTRODUCTION.......................................................................................................................1 


          BACKGROUND ..............................................................................................................1 

              Medicare Inpatient Prospective Payment System ................................................1 

              Wage Indexes and Wage Rates.............................................................................1 

              Medicare Contractor Wage Data Reviews............................................................2 

              Altoona Regional Health System..........................................................................2 

              Congressional Request..........................................................................................3 


          OBJECTIVES, SCOPE, AND METHODOLOGY..........................................................3 

               Objectives .............................................................................................................3 

               Scope.....................................................................................................................3 

               Methodology .........................................................................................................4 


RESULTS OF REVIEW ............................................................................................................5 


          HIGHMARK’S REVIEWS OF ALTOONA HOSPITAL’S WAGE DATA...................5 


          HIGHMARK’S AND WISCONSIN PHYSICIANS’ REVIEWS OF 20

              OTHER HOSPITALS’ WAGE DATA ...................................................................5 


APPENDIX

           LOCATIONS OF THE HOSPITALS REVIEWED




                                                                    iii
                                               INTRODUCTION 


BACKGROUND

Medicare Inpatient Prospective Payment System

Under the inpatient prospective payment system for acute-care hospitals, Medicare Part A pays
hospital costs at predetermined, diagnosis-related rates for patient discharges. In fiscal year
(FY) 2009, the Centers for Medicare & Medicaid Services (CMS) expects Medicare Part A to
pay inpatient hospitals approximately $138.3 billion. Under contract with CMS, fiscal
intermediaries and Medicare administrative contractors (collectively, Medicare contractors) pay
acute-care hospitals and review hospitals’ Medicare cost reports.

Wage Indexes and Wage Rates

To reflect labor cost variations among localities, CMS adjusts prospective payments to acute-
care hospitals through wage indexes. 1 CMS uses the Office of Management and Budget (OMB)
metropolitan area designations to identify labor markets and to calculate and assign wage
indexes to hospitals. In 2003, OMB revised its metropolitan statistical area definitions and
announced new core-based statistical areas (CBSA). CMS first used the CBSAs when
calculating the wage indexes for FY 2005. CMS calculates a wage index for each CBSA and a
statewide rural wage index for each State for areas that lie outside CBSAs. The wage index for
each CBSA and statewide rural area is based on the average hourly wage rate of the hospitals in
those areas divided by the national average hourly wage rate. All hospitals within a CBSA or
within a statewide rural area receive the same labor payment adjustment.

To calculate wage indexes, CMS uses hospital wage data (which include wages, salaries, and
related hours) collected 4 years earlier to allow time for CMS to collect complete cost report data
from all inpatient prospective payment system hospitals and for Medicare contractors to review
the data. For example, CMS based the wage indexes for FY 2009, which began October 1, 2008,
on wage data collected from hospitals’ Medicare cost reports for their FYs that began during
Federal FY 2005 (October 1, 2004, through September 30, 2005). A hospital’s wage rate is the
quotient of dividing total dollars (numerator) by total hours (denominator). Arriving at the final
numerator and denominator in this rate computation involves a series of calculations.
Inaccuracies in either the dollar amounts or hours reported can have varying effects on the final
rate computation.

Section 1886(d)(3)(E) of the Social Security Act (the Act) requires that CMS update wage
indexes annually in a manner that ensures that aggregate payments to hospitals are not affected
by changes in the indexes. Further, section 1886(d)(3)(A)(iv) of the Act requires CMS to update
labor and nonlabor average standardized amounts by an applicable percentage increase specified
in section 1886(b)(3)(B)(i). The percentage increase is based on the market basket index, which
measures inflationary increases in hospital costs. The inclusion of unallowable costs in wage

1
 The inpatient prospective payment system wage index or a modified version also applies to other providers, such as
outpatient hospitals, long-term-care hospitals, inpatient rehabilitation facilities, inpatient psychiatric facilities,
skilled nursing facilities, home health agencies, and hospices.


                                                          1

data could produce an inaccurate market basket index for updating prospective payments to
hospitals.

Medicare Contractor Wage Data Reviews

Generally, chapter 8, section 20.1, of CMS’s “Medicare Financial Management Manual” (Pub.
No. 100-06) (the Manual) requires that Medicare contractors review hospitals’ annual cost
reports to determine the adequacy, completeness, accuracy, and reasonableness of the reported
data. According to section 20.1, the “objective of the desk review is to determine whether the
cost report can be settled without an audit or whether an in-house or field audit is necessary.”

Chapter 8, section 20.4, of the Manual requires that wage data reviews be “completed on all cost
reports for short-term acute inpatient prospective payment system (IPPS) hospitals and hospitals
that would otherwise be subject to IPPS if they did not have a waiver.” To establish consistency
in wage data reviews, each year CMS provides Medicare contractors with specific guidance, the
“Annual Desk Review Program for Hospital Wage Data” (desk review program). After
completing their reviews, Medicare contractors calculate a wage rate for each hospital for which
they are responsible. CMS uses the nationwide wage data and other hospital data that Medicare
contractors have reviewed and approved to calculate wage indexes for all CBSAs and statewide
rural areas.

Currently, two Medicare contractors review the wage data of the 154 Pennsylvania hospitals with
Medicare utilization.

       •	 Highmark Medicare Services (Highmark) conducts wage data reviews for 120
          Pennsylvania hospitals at its offices in Camp Hill, Fort Washington, and Pittsburgh,
          Pennsylvania.

       •	 Wisconsin Physicians Service Insurance Corporation (Wisconsin Physicians) conducts
          wage data reviews at its Omaha, Nebraska, office for 34 Pennsylvania hospitals that are
          parts of chains. 2

Altoona Regional Health System

The Altoona Regional Health System (Altoona Hospital) was formed when the Altoona and Bon
Secours–Holy Family Hospitals merged on November 1, 2004. Acute-care services are provided
at two campuses, Altoona and Bon Secours. Altoona Hospital is licensed for a combined total of
497 beds and is one of two hospitals in the Altoona CBSA, located in western Pennsylvania. 3
Highmark’s Pittsburgh office is responsible for reviewing Altoona Hospital’s wage data.

Based on the nationwide wage data reviewed and approved by Medicare contractors, CMS
calculated the FY 2009 wage index for the Altoona CBSA as 0.8333, the same wage index
calculated for three other Pennsylvania CBSAs (Johnstown in western Pennsylvania,

2
    Wisconsin Physicians also has offices in Wisconsin.
3
    The Altoona CBSA comprises Altoona Hospital and Nason Hospital.


                                                          2

Williamsport in central Pennsylvania, and Scranton–Wilkes-Barre in eastern Pennsylvania) and
the same as Pennsylvania’s rural wage index. Of the 439 CBSAs nationwide, 385 had higher
wage indexes than the Altoona CBSA and 50 had lower wage indexes. Of the 49 statewide rural
wage indexes, 33 were higher and 15 were lower than Pennsylvania’s rural wage index.

Congressional Request

We conducted this review as a result of a congressional request related to Highmark’s review
and approval of wage data used to determine Altoona Hospital’s wage index. Discussions
indicated congressional concern that any differences in wage indexes between western and
eastern Pennsylvania may have resulted from the possible disparate treatment of western and
eastern Pennsylvania hospitals during Highmark’s wage data reviews.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether:

       •	 Highmark followed the desk review program when reviewing Altoona Hospital’s wage
          data that CMS used to calculate the FYs 2004 through 2009 wage indexes and

       •	 Highmark and Wisconsin Physicians followed the desk review program when reviewing
          20 other Pennsylvania hospitals’ wage data that CMS used to calculate the FY 2009 wage
          indexes.

Scope

Our review covered Highmark’s review of the wage data that Altoona Hospital included in its
FYs 2001 through 2006 cost reports, which CMS used to calculate the FYs 2004 through 2009
wage indexes. For the wage data used to calculate the FYs 2004 through 2008 wage indexes, we
limited our review to Highmark’s procedures for reviewing wage data; we did not independently
review Altoona Hospital’s wage data, nor did we verify the appropriateness of Highmark’s
adjustments to the data. For the wage data used to calculate the FY 2009 wage indexes, in
addition to reviewing Highmark’s review procedures, we audited the wage data that Altoona
Hospital included in its FY 2006 cost report. The results of that audit are included in another
report. 4

We also reviewed Highmark’s and Wisconsin Physicians’ procedures for reviewing 20 other
Pennsylvania hospitals’ wage data that CMS used to calculate the FY 2009 wage indexes. We
did not independently review the 20 hospitals’ wage data, nor did we verify the appropriateness
of Highmark’s and Wisconsin Physicians’ adjustments to the data.

We judgmentally selected the 20 hospitals to include hospitals in western, central, and eastern
Pennsylvania. Highmark reviewed 15 of the 20 hospitals’ cost reports: 6 in its Pittsburgh office,
4
    “Review of Altoona Regional Health System’s Reported Fiscal Year 2006 Wage Data” (A-03-08-00019).


                                                        3

5 in its Camp Hill office, and 4 in its Fort Washington office. Wisconsin Physicians’ Omaha
office reviewed the five other hospitals’ cost reports. See the Appendix for the names and
locations of the hospitals reviewed.

We conducted our audit from August to December 2008. Our audit included fieldwork at the
Highmark office in Pittsburgh, Pennsylvania, and contacts with the Highmark offices in Camp
Hill and Fort Washington, Pennsylvania, and the Wisconsin Physicians office in Omaha,
Nebraska.

Methodology

To accomplish our objectives, we:

   •	 reviewed applicable Medicare laws, regulations, and guidance;

   •	 interviewed Highmark staff to obtain an understanding of their procedures for reviewing
      the wage data that CMS used to calculate the FYs 2004 through 2009 wage indexes;

   •	 reviewed Highmark’s procedures for reviewing Altoona Hospital’s wage data that CMS
      used to calculate the FYs 2004 through 2009 wage indexes and Highmark’s related
      workpapers and documentation;

   •	 compared the wage data that Altoona Hospital submitted to Highmark with the approved
      wage data that Highmark submitted to CMS for use in calculating the FYs 2004 through
      2009 wage indexes to determine whether Altoona Hospital had questioned any of
      Highmark’s adjustments;

   •	 reviewed Highmark’s procedures for reviewing the 15 selected hospitals’ wage data that
      CMS used to calculate the FY 2009 wage indexes and Highmark’s related workpapers
      and documentation;

   •	 interviewed Wisconsin Physicians staff to obtain an understanding of their procedures for
      reviewing the wage data that CMS used to calculate the FY 2009 wage indexes;

   •	 reviewed Wisconsin Physicians’ procedures for reviewing the 5 selected hospitals’ wage
      data that CMS used to calculate the FY 2009 wage indexes and Wisconsin Physicians’
      related workpapers and documentation; and

   •	 compared Highmark’s and Wisconsin Physicians’ review procedures.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.



                                               4

                                   RESULTS OF REVIEW


Highmark followed the desk review program when reviewing Altoona Hospital’s wage data that
CMS used to calculate the FYs 2004 through 2009 wage indexes. For the 20 other selected
hospitals, Highmark and Wisconsin Physicians followed the desk review program when
reviewing the hospitals’ wage data that CMS used to calculate the FY 2009 wage indexes.

Because we found no evidence of disparate treatment based on the Medicare contractor that
reviewed the wage data or a hospital’s geographic location, we have no recommendations.

HIGHMARK’S REVIEWS OF ALTOONA HOSPITAL’S WAGE DATA

Highmark followed the desk review program when reviewing Altoona Hospital’s wage data that
were included in its FYs 2001 through 2006 cost reports and used to calculate the FYs 2004
through 2009 wage indexes. Highmark completed its reviews within the timeframes prescribed
in the desk review program. The adjustments that Highmark made during its reviews were
consistent with guidance in the desk review program and were identified using the threshold
criteria included in the desk review program. The threshold criteria include percentage
differences between the wage data reported for the current year and the previous year, ranges of
dollar amounts for costs or services, and other mathematical checks and balances. Contractors
use these criteria to determine whether wage data merit further review. When the differences
exceeded the threshold criteria, Highmark performed additional review work, as required, to
verify the accuracy of the reported amounts.

Highmark identified some errors in Altoona Hospital’s reported salaries and hours, including
errors in excluded, additional, and overhead salaries and in other wage-related costs, such as
pension costs. For example, Highmark determined that Altoona Hospital had overstated contract
labor costs for 4 of the 6 years that we reviewed. Highmark also determined that Altoona
Hospital’s financial records did not always support its wage data. Consequently, Highmark
disallowed the difference between the wage data reported and the wage data supported by
records. For the 6 years that we reviewed, Altoona Hospital questioned only one Highmark
adjustment, which pertained to pension costs in the FY 2004 wage data. In that case, Highmark
reconsidered its decision and allowed the pension costs that Altoona Hospital had included in its
cost report.

HIGHMARK’S AND WISCONSIN PHYSICIANS’ REVIEWS
OF 20 OTHER HOSPITALS’ WAGE DATA

Highmark’s Camp Hill, Fort Washington, and Pittsburgh offices and Wisconsin Physicians’
Omaha office followed the desk review program when reviewing the 20 selected hospitals’ wage
data that CMS used to calculate the FY 2009 wage indexes. The two Medicare contractors
completed their reviews within established timeframes and provided documentation to support
their adjustments to the hospitals’ wage data.

We found no significant differences among the four offices’ methodologies or review
procedures. We found no evidence of disparate treatment by Highmark of Altoona Hospital’s



                                                5

wage data compared with the treatment of other Pennsylvania hospitals’ wage data. We also
found no evidence of disparate treatment based on the Medicare contractor that reviewed the
wage data or a hospital’s geographic location.




                                               6

APPENDIX 

                                                                            APPENDIX


             LOCATIONS OF THE HOSPITALS REVIEWED




                      Highmark Hospitals (Red and Yellow)
Allegheny County        1. University of Pittsburgh Medical Center–Presbyterian
                             Shadyside, Pittsburgh
                        2. Mercy Hospital of Pittsburgh, Pittsburgh
Blair County            3. Altoona Regional Health System, Altoona
Bucks County            4. Grand View Hospital, Sellersville
Cambria County          5. Memorial Medical Center, Johnstown
Carbon County           6. Palmerton Hospital, Palmerton
Clearfield County       7. Clearfield Hospital, Clearfield
Cumberland County       8. Holy Spirit Hospital, Camp Hill
Dauphin County          9. Hershey Medical Center, Hershey
Erie County            10. Saint Vincent Health Center, Erie
Lackawanna County      11. Community Medical Center, Scranton
Monroe County          12. Pocono Medical Center, East Stroudsburg
Philadelphia County    13. Temple University Hospital, Philadelphia (yellow)
                       14. Frankford Hospital, Philadelphia (yellow)
Union County           15. Evangelical Community Hospital, Lewisburg
Washington County      16. Monongahela Valley Hospital, Monongahela

                Wisconsin Physicians Hospitals (Blue and Yellow)
Columbia County       17. Berwick Hospital Center, Berwick
Montgomery County     18. Bryn Mawr Hospital, Bryn Mawr
                      19. Abington Memorial Hospital, Abington
Philadelphia County   20. Chestnut Hill Hospital, Philadelphia (yellow)
York County           21. Memorial Hospital, York
